DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


 Review of FEMA’s Use of Proceeds From
  the Sales of Emergency Housing Units




               DO NOT DISTRIBUTE WITHOUT OIG AUTHORIZATION
                                   DRAFT REPORT
OIG-08-23                                                                    February 2008
       Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                         Page 0
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                          February 5, 2008


                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibility to promote economy, efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Federal Emergency Management
Agency’s (FEMA) use of proceeds from the sales of emergency housing units. It is based on
interviews with employees and officials of relevant agencies and institutions, direct observations,
and analyses of applicable documents.

The recommendations herein have been developed according to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is our hope
that this report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                           Richard L. Skinner
                                           Inspector General
Table of Contents/Abbreviations

  Executive Summary .........................................................................................................................1

  Background ......................................................................................................................................2

  Results of Review ............................................................................................................................5

  Conclusions and Recommendations ................................................................................................8

  Management Comments and OIG Analysis ....................................................................................9

  Appendices

       Appendix A:          Objectives, Scope, and Methodology................................................................11
       Appendix B:          Management Comments to the Draft Report ....................................................13
       Appendix C:          Major Contributors to This Report....................................................................17
       Appendix D:          Report Distribution............................................................................................18

  Abbreviations

       DHS              Department of Homeland Security
       EHU              Emergency Housing Unit
       FEMA             Federal Emergency Management Agency
       FY               Fiscal Year
       GSA              General Services Administration
       IFMIS            Integrated Financial Management Information System
       OIG              Office of Inspector General
OIG
Department of Homeland Security
Office of Inspector General

     Executive Summary
                 Starting in fiscal year 2005, and continuing through early 2007, Federal
                 Emergency Management Agency (FEMA) officials used funds received from
                 the sale of used travel trailers and mobile homes to partially finance the
                 operations of a dozen Emergency Housing Unit (EHU) sites in seven states.
                 However, more than $13.5 million of the sales proceeds were expended for
                 ineligible purchases. This occurred because FEMA program officials failed to
                 ensure that the EHU expenditures met General Services Administration
                 (GSA) regulations on the use of sales proceeds.

                 Proceeds from the sale of government property are restricted-use funds that
                 can be used for the purchase of a select group of replacement type items
                 within a specified time. GSA regulations specify conditions that must be met
                 in order to participate in the program, and if not met, an agency must return
                 proceeds to the United States Treasury.

                 FEMA officials used approximately one half of the sales proceeds, or about
                 $13.5 million, on ineligible expenditures including (1) contracts to support
                 and equip storage sites, (2) replenishment of purchase card accounts, and
                 (3) travel expenses. These purchases generally represented operating
                 expenses of the EHU sites, but were ineligible expenditures under GSA
                 regulations. Because of the unbudgeted nature of these funds and the need for
                 better oversight and control, unnecessary and uneconomical purchases were
                 made.

                 FEMA requested this review in early 2007 and FEMA’s Disaster Finance
                 Center initiated its own detailed review concurrently. The Disaster Finance
                 Center review, completed in June 2007, concluded that most of the sales
                 proceeds were used for ineligible purposes or not used within prescribed
                 timeframes. The Disaster Finance Center recommended that appropriate fund
                 account adjustments be made and that improperly used funds be returned to
                 the U.S. Treasury. We concur with the Disaster Finance Center
                 recommendations and make additional recommendations to prevent misuse in
                 the future.




             Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                               Page 1
    Background

              In the aftermath of the 2004 and 2005 hurricane seasons, FEMA purchased more than
              230,0001 travel trailers and mobile homes at a cost of about $2.9 billion to temporarily
              shelter displaced disaster victims. As these victims have vacated temporary housing
              over time, FEMA moved the used trailers and mobile homes to EHU sites for
              cleaning, repair, refurbishing, and an assessment of each unit to determine whether to
              retain it for future use, or to sell the unit through the GSA. As shown below, during
              fiscal years (FYs) 2005 and 2006, and the first 7 months of 2007, FEMA received
              more than $43 million in proceeds from GSA, mostly from the sale of emergency
              housing units.

                                    Proceeds to FEMA From GSA Sales
                                      Year            Amount
                                      2005          $25,973,295
                                      2006           11,352,116
                                      2007            6,018,208
                                        Total      $43,343,6199

              GSA transferred sales proceeds to FEMA where the funds were placed in the Disaster
              Relief Fund Account 5011SR, GSA Sales and Returns - Emergency Housing Units.
              The Disaster Finance Center recorded the receipt of sales proceeds from GSA in a
              suspense account and distributed them to the 5011SR account based on the program
              office’s certification and approval. The Logistics Management Directorate2 managed
              the emergency housing program and determined what housing units were to be sold
              and what replacement items were to be purchased. Correspondence between the
              Office of the Chief Financial Officer, the Office of Chief Counsel, and the Logistics
              Management Directorate addressed program expenditures and the need to limit
              purchases to qualifying replacement “like items.” Documentation we reviewed
              indicated that these offices understood the GSA restrictions on the use of sales
              proceeds and the requirement to return the proceeds of unused funds to Treasury.

              Applicable Laws and Regulations

              The Robert T. Stafford Disaster Relief and Emergency Assistance Act (Stafford Act,
              42 U.S.C. 5121 et seq.) and applicable sections of the Federal Management Regulation
              dealing with the exchange/sale authority, allow FEMA to use proceeds from the sale
              of trailers and mobile homes, but only for certain types of expenditures. While
              proceeds from the sale of government property generally must be returned to the
              Treasury as miscellaneous receipts, there are two exceptions that apply to the sale of
              FEMA-owned travel trailers and mobile homes.
1
  FEMA was unable to provide an accurate count and dollar value; this is an estimate.
2
  Formerly the Response Division/Logistics Branch, now the Logistics Management Directorate since the FEMA
reorganization of March 2007.

               Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                                 Page 2
The Stafford Act allows the sale of FEMA-owned housing units to the occupants of
those units when the occupants lack permanent housing. In such cases, the proceeds
from the sales are to be deposited in the appropriate Disaster Relief Fund account.
However, this particular exception does not apply to the funds in question in this
report.

Housing units that are not sold to occupants or re-used can be made available to
governmental or voluntary organizations for housing disaster victims or can be sold.
Units that are sold on the open market could be sold by FEMA, but the sale must be
conducted according to Federal Management Regulations, promulgated by GSA. As a
matter of general practice, FEMA housing units are sold to the general public through
auctions conducted by GSA with FEMA retaining the proceeds under the
exchange/sale authority specified in the regulations. Under this authority, a federal
agency may sell “personal property,” i.e., property other than “real property,” and use
the funds received for the acquisition of similar personal property.

The exchange/sale authority provides that an agency can expend sales receipts only
when all of the following conditions are met:

    1. The property exchanged or sold is similar to the property acquired. “Similar”
       property is defined as items that are identical, or designed and constructed for
       the same purpose, or constitute parts or containers for similar end items, or fall
       within a single Federal Supply Classification group of property;

    2. The property exchanged or sold is not surplus, and the agency has a continuing
       need for that type of property;

    3. The number of items acquired must equal the number of items exchanged or
       sold, with certain exceptions allowed;

    4. The property exchanged or sold was not acquired for the principal purpose of
       being exchanged or sold; and

    5. Proper documentation is maintained.

Proceeds from sales not meeting the above criteria must be deposited as miscellaneous
receipts in the Treasury. In addition, funds not appropriately expended for eligible
items by the end of the fiscal year following the fiscal year in which the property was
sold are forfeited and must also be turned over to the Treasury.

GSA regulations allow certain other expenses to be reimbursed from exchange/sale
funds, including costs for the care and handling of the property being sold prior to
being turned over to the buyer. In our draft report, we allowed that certain indirect
costs could be considered as eligible expenses under the GSA regulations. However,

Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                  Page 3
the GSA regulations are somewhat ambiguous, and thus subject to interpretation.
FEMA has decided that the EHU-related expenditures should be budgeted for as part
of EHU site operation costs, rather than funded by exchange/sale proceeds. We agree
with this decision.

Based on GSA regulations, the following items are eligible for purchase or
reimbursement using the 5011SR account funds generated as a result of sales of
FEMA-owned travel trailers and mobile homes:

    1. Any property that can be considered as identical, such as another travel trailer
       or mobile home.

    2. Any property that meets the similarity test by being a member of the same
       Federal Supply Classification Group. Under the same Federal Supply
       Classification Group 23 as “house trailers” are passenger motor vehicles,
       trucks and truck tractors, all complete trailers, and motorcycles, motor scooters
       and bicycles.

The use of 5011SR account funds for any other purposes would be the equivalent of
charging expenditures to the wrong appropriation. Federal statute (31 U.S.C. 1301(a))
requires that “Appropriations shall be applied only to the objects for which the
appropriations were made except as otherwise provided by law.” Charging authorized
items to the wrong federal funds source or charging unauthorized items to any federal
funds source is therefore prohibited.




Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                  Page 4
Results of Review
       Contrary to GSA exchange/sale authority regulations, FEMA used trailer and mobile
       home sales proceeds to purchase ineligible items. Instead of using the proceeds
       (recorded in the 5011SR account) to replace housing or to procure similar items, the
       money was spent for items such as improvements to leased property, funding EHU site
       operations, and purchasing automotive and office supplies. The Logistics
       Management Directorate awarded $23.4 million in contracts, of which $12.2 million
       went for services or items not allowed for by GSA’s exchange/sale authority. In
       addition, $1.3 million in credit card purchases were inappropriately paid for using
       proceeds from the sale of trailers and mobile homes. FEMA officials need to account
       for all of these ineligible items, de-obligate and re-obligate monies so these
       expenditures are funded with appropriate sources, and return to the Treasury all
       exchange sales authority receipts that have not been appropriately expended in the
       allowable period of time. FEMA also needs to establish controls and provide
       oversight regarding the use of sales proceeds to ensure that only eligible items are
       procured and that such eligible procurements are necessary.

       How the Situation Arose

       Even allowing for the hectic situation that ensued in the aftermath of the 2004 and
       2005 hurricanes, FEMA officials at all levels did not take appropriate action to ensure
       that proceeds from the sale of trailers and mobile homes were properly used.
       Inadequate management control over the exchange/sale function gave rise to the use of
       these funds for ineligible purposes.

       Prior to 2004, FEMA did not extensively use GSA’s exchange/sale authority. In 2004,
       FEMA purchased about 24,000 travel trailers to shelter the victims of hurricanes
       Charley, Frances, Ivan, and Jeanne. As these travel trailers were being vacated and
       returned to FEMA, Hurricanes Katrina, Rita, and Wilma struck.

       The immediate task facing FEMA’s Logistics Management Directorate in 2005 was to
       establish the EHU storage sites to store, clean, and refurbish the thousands of travel
       trailers that were returned after being used by victims of the 2004 Florida hurricanes.
       As the 2005 hurricanes struck, FEMA placed orders for more than 200,000 trailers and
       mobile homes, and needed EHU sites to stage them until the transitional housing
       locations could be established to accommodate the displaced victims. Within 2
       months after Katrina, FEMA had established 12 EHU sites in 7 states. It was in this
       environment that tens of millions of dollars of unbudgeted funds were streaming into
       FEMA from GSA. While funds were recorded by the Disaster Finance Center and
       made available to the Logistics Management Directorate, the subsequent use of the
       funds received little oversight from FEMA management.

       The Direct Disaster Relief Funds associated with the 2004 and 2005 hurricanes
       covered the initial expenses of the EHU sites. Those funds were limited to eligible

       Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                         Page 5
expenses directly linked to assisting disaster victims in the particular states where the
disasters were declared, and were only available while the disaster declaration was in
force. By the end of 2005, disaster operations were winding-down and disaster relief
funds were no longer available to cover expenses of storing units for possible future
disasters.

The unplanned expense of leasing and preparing the 12 sites left Logistics with a FY
2006 budget shortfall. In October 2005, Logistics Management Directorate officials in
FEMA headquarters requested additional funds to cover the unanticipated costs of the
EHU sites for the remainder of FY 2006. This request was elevated to FEMA’s acting
Director of Operations who, in November 2005, established a strategic oversight
steering group consisting of membership from the Logistics Management Directorate,
the Chief Financial Officer, the Chief Procurement Officer, the Facilities Management
Branch, and other program offices, in coordination with appropriate field elements.
While the group was to provide centralized funding and procurement management for
the EHU sites, it never met, the acting Director of Operations left the agency, and the
issue was not addressed by his successor.

With mounting EHU site costs, inability to access the disaster relief funds, and an
insufficient budget, the logistics officials began funding the EHU site operations with
5011SR account funds. Instead of using the 5011SR account funds to acquire
replacement “like” items, the Logistics Management Directorate broadened its
interpretation of the GSA definition requiring the acquisition of “like” replacement
items to include almost all the costs of operating the EHU sites.

During the course of our review, FEMA drafted a policy paper, “Disposal of
Temporary Housing Units,” which, in part, re-stated the law and applicable
regulations dealing with the exchange/sale authority. However, FEMA has yet to
issue implementing guidance and procedures dealing with the management of such
proceeds.

Ineligible Expenditures

Between October 2004 and March 2007, EHU officials used about $23.4 million in
5011SR account funds to pay for contract services and purchases. Fifteen contracts
totaling $11.2 million were let for eligible items such as motor vehicles and trailers of
various types. However, as described below, $12.2 million was used for contracts not
eligible for such funding.

    •   Thirty service contracts totaling $4,100,666 were awarded for such things as
        tree-removal, guard services, and temporary labor services.

    •   Thirty-two contracts with expenditures totaling $2,922,656 were awarded to
        provide tools or equipment, such as automotive supplies, metal fabrication, and
        sign-making equipment.

Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                  Page 6
    •   Two contracts totaling $69,710 were awarded for office equipment.

    •   Fourteen contracts totaling $1,724,646 were awarded for EHU site preparation
        and site improvements.

    •   Fourteen contracts totaling $617,856 were awarded to provide water and
        electrical services to EHU.

    •   Three contracts totaling $8,227 were for travel-related services.

    •   Six contracts totaling $714,178 were for travel trailers and mobile home parts
        and equipment to include tires, fire extinguishers, and mattresses, items that are
        not technically eligible for the use of 5011SR account funds. The Logistics
        Management Directorate might have been able to obtain a waiver from GSA
        for the purchase of these items had they requested one.

    •   Eight contracts provided miscellaneous items and services such as permits,
        fees, and package delivery services. Contract payments totaling $2,062,032
        were ineligible for a variety of reasons.

In addition, proceeds in the 5011SR account funded 15 credit cards. These cards were
used to charge more than $1.3 million in purchases during the period under review.
We were able to obtain records accounting for approximately 75% of the spending and
determined that almost none of the purchases were eligible for funding with
exchange/sale authority funds. Among the ineligible credit card purchases we
identified were more than $100,000 in purchases for crushed rock at the Frostburg,
Maryland EHU site; $20,560 for FEMA and DHS decals and banners; $9,000 for 10
global positioning navigation devices; and $7,098 for a “shrink-wrap” machine that
was sent to FEMA’s Caribbean Division in Puerto Rico.

Logistics Management Directorate officials spent $16,127 for travel voucher
reimbursements during the period under review. Exchange/sale authority funds were
used for local travel expenses and for travel of headquarters officials to field offices
and field office officials’ travel to headquarters. Funds were also used for training-
related expenses. None of these expenditures met the criteria for eligible uses of
exchange/sale authority funds.

In total, and as summarized below, $13.5 million of the sales proceeds were used for
ineligible expenditures.




Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                  Page 7
                                 Eligible                  Ineligible              Total
                                Expenses                 Expenditures          Expenditures
         Contracts Funded     $11.2 million              $12.2 million         $23.4 million
        Credit Cards Funded     <$25,000                  $1.3 million          $1.3 million
           Travel Funded            0                       $16,000               $16,000
                      Totals $11.2 million              $13.5 million         $24.7 million

      Other Questionable Expenditures

      In addition to the items that were ineligible under GSA regulations, FEMA logistics
      officials purchased several eligible items that were excessive in that they contained
      unnecessary, expensive features. For example, logistics officials purchased six sport
      utility vehicles with luxury packages that included navigation systems, leather seats,
      DVD video players, and high-end stereos. FEMA did not purchase these vehicles
      “off-the-lot” but rather placed an order that specified the options package. Passenger
      cars and light trucks are classified in the same Federal Supply Classification category
      as travel trailers, and thus could be considered eligible, under certain circumstances.
      However, logistics officials could have purchased standard models that would have
      been more appropriate for the purposes for which they were intended. Instead of
      buying standard models for about $36,860 each, logistics officials ordered fully
      equipped models costing $49,248 each.

      Since fieldwork began on this review, formaldehyde was detected in some of the
      FEMA travel trailers, and the sales of those units have been halted. This situation will
      result in increased inventories of returned units, and until this issue is resolved, FEMA
      will incur transportation, storage, security, and other expenses on the stored units.

Conclusions and Recommendations
      FEMA officials did not implement an appropriate system of controls over the
      exchange/sale authority funds generated by the sales of travel trailers and mobile
      homes or establish an adequate and effective budgetary process for the Logistics
      Management Directorate’s EHU sites. Logistics officials spent exchange/sale funds
      on a wide range of equipment and expenditures for the EHU sites. More than half of
      the expenditures they made were for ineligible items. In total, logistics officials used
      contracts and credit cards to expend more than $13.5 million in 5011SR account funds
      on items and services not eligible for purchase with such exchange/sale authority
      funds. All of these inappropriate expenditures must now be de-obligated and re-
      obligated using appropriate funding. The Disaster Finance Center at Mount Weather,
      Virginia, has already started this process. The transaction dates of all of these 5011SR
      account funds will need to be determined and all of the sales receipts that have passed
      the end of the fiscal year following the fiscal year in which they were generated will
      need to be deposited in the Treasury miscellaneous receipts account. At the end of FY
      2007, all of the funds that were received in FY 2006 must be returned to the Treasury.


       Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                         Page 8
                   In addition, FEMA officials need to take appropriate steps to prevent the misuse of
                   such funds in the future. Since expenditures of these exchange/sale authority funds
                   were halted in January 2007, GSA has auctioned thousands of additional travel trailers
                   and mobile homes generating millions of dollars in available revenue and thousands of
                   travel trailers and mobile homes are in the system and could be sold in the future.
                   FEMA officials need to develop and implement an adequate system of controls over
                   the planning for and use of the exchange/sale authority funds that will be available for
                   future use. In addition, FEMA should develop and issue policies and standard
                   operating procedures governing the use of 5011SR account funds.

                   The conclusions in this report are consistent with those of the Disaster Finance Center
                   team that also reviewed the expenditures made under this program. Although we have
                   not seen the Disaster Finance Center’s final report3 and recommendations, the initial
                   draft indicates they will be similar to the recommendations we offer below.

                   We recommend that the Administrator, FEMA:

                        1. De-obligate all ineligible expenditures for contracts, purchase cards, and
                           travel–related expenses made with 5011SR account funds, and re-obligate the
                           expenditures using appropriate fund sources.

                        2. Return all exchange/sale authority funds to the Treasury that are proceeds for
                           property sold in fiscal year 2006, or earlier.

                        3. Establish a system to track all remaining exchange/sale authority funds and all
                           future receipts so they can be returned to the Treasury at the end of the fiscal
                           year following the fiscal year in which the property was sold if the funds are
                           not properly used within prescribed time frames.

                        4. Issue a written directive governing FEMA’s use of exchange/sale authority
                           funds to only be used to reimburse for eligible items and only after an
                           appropriate review of each expenditure.

                        5. Direct that any actions that are not clearly allowable be undertaken only after a
                           waiver or “deviation” has been reviewed and approved by GSA officials.

          Management Comments and OIG Analysis
          As indicated in the management responses to our October 2007 draft report, (see Appendix B)
          FEMA has concurred with each of the five OIG recommendations and has agreed to notify
          OIG concerning the agency’s actions taken or planned to implement the recommendations by
          February 11, 2008. We consider all of the recommendations resolved because of the proposed

3
    At the time of our review, the Disaster Finance Center had not issued their report, but did provide a draft to our office.


                   Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                                     Page 9
steps to implement them, and will close recommendations as corrective actions are
implemented.

FEMA also provided technical comments that suggested language changes to more clearly
present the issues. We appreciate this assistance, and have taken into consideration each of
the technical comments.




       Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                        Page 10
Appendix A
Objectives, Scope and Methodology

                    This review was conducted in response to a request from the FEMA Deputy
                    Administrator. In keeping with that request, the objectives of our review were
                    to determine what exchange/sale authority funds were available to the EHU
                    unit, what expenditures were made with such funds, and which expenditures
                    were and were not eligible for using such funds. We also sought to determine
                    why funds might have been used incorrectly, what steps need to be taken to
                    provide corrective action for past ineligible expenditures, and how to prevent
                    inappropriate uses of exchange/sale authority funds in the future.

                    The scope of our review included all expenditures of Account 5011SR - GSA
                    Sales and Returns - Emergency Housing Units made during fiscal years 2005,
                    2006, and 2007. The records and expenditures we reviewed were through
                    March 8, 2007. A “freeze” on the use of 5011SR account funds was in place
                    by that date and the only expenditures that were made after March 8, 2007,
                    were to pay vendors whose payments from prior obligations were overdue.
                    Those few post-March 8, 2007, expenditures are not within the scope of our
                    review.

                    We reviewed Disaster Finance Center files for each of the contracts funded
                    with 5011SR account funds during the applicable time frame. Expenditures
                    for the contracts reviewed totaled $23,370,519.

                    We also reviewed all available supporting documentation for the $1,311,848
                    that funded government purchase cards that were used for EHU expenditures.
                    We were able to obtain records showing the details of $976,848 in
                    expenditures under 12 of 15 purchase card accounts. FEMA was unable to
                    provide the records for three purchase card accounts. One individual
                    responsible for one of the purchase card accounts totaling $300,000 told us
                    that in the immediate aftermath of Hurricanes Katrina and Rita, he was not
                    able to maintain an expenditure log due to operational demands.

                    We obtained and reviewed the travel vouchers totaling $8,555 of the $16,127
                    in travel expenses. The remaining travel vouchers could not be located.

                    We interviewed responsible officials from pertinent FEMA offices including
                    the Office of the Chief Financial Officer and its Disaster Finance Center, the
                    Logistics Management Directorate and its Emergency Housing Unit, and the
                    Office of the Chief Counsel concerning the appropriate uses of exchange/sale
                    authority funds and the uses that were made of such funds by the EHU. We
                    also interviewed GSA officials concerning the purposes and applicable rules
                    and regulations of the exchange/sale authority program.

                    We conducted fieldwork in Washington, D.C. and at the Disaster Finance
                    Center, Mt. Weather, Virginia. We conducted our review from May 2007 to

                Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                                 Page 11
Appendix A
Objectives, Scope and Methodology

                    August 2007 under the authority of the Inspector General Act of 1978, as
                    amended, and according to Generally Accepted Government Auditing
                    Standards for performance audits. However, the analysis of 5011SR account
                    funds expenditures was based on data contained in the FEMA Integrated
                    Financial Management Information System (IFMIS) database. Our review did
                    not include a test of the validity and reliability of the IFMIS data nor an
                    evaluation of the effectiveness of controls over the system that produced the
                    relied-upon data.




                Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                                 Page 12
Appendix B
Management Comments to This Report




               Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                                Page 13
Appendix B
Management Comments to this Report




                Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                                 Page 14
Appendix B
Management Comments to this Report




                Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                                 Page 15
Appendix B
Management Comments to this Report




                Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                                 Page 16
Appendix C
Major Contributors to This Report

                     Gina Smith, Director, Disaster Assistance, Operations & Logistics Division
                     Don Norman, Senior Auditor
                     John Meenan, Senior Auditor




                 Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                                  Page 17
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      FEMA OIG Liaison
                      Chief Privacy Officer

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner


                      Congress
                      Congressional Oversight and Appropriations Committees, as appropriate




                  Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                                   Page 18
Appendix C
Report Distribution




     Additional Information and Copies

     To obtain additional copies of this report, call the Office of Inspector General
     (OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
     site at www.dhs.gov/oig.


     OIG Hotline

     To report alleged fraud, waste, abuse or mismanagement, or any other kind of
     criminal or noncriminal misconduct relative to department programs or
     operations:

         •   Call our Hotline at 1-800-323-8603;
         •   Fax the complaint directly to us at (202) 254-4292;
         •   Email us at DHSOIGHOTLINE@dhs.gov; or
         •   Write to us at:
               DHS Office of Inspector General/MAIL STOP 2600, Attention:
               Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
               Washington, DC 20528.

     The OIG seeks to protect the identity of each writer and caller.




                  Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                                    Page 0
